HHS/OIG - Audit, "Review of Grant No. 08YG0001 ACF Discretionary Grant for the Period 09/30/1996 - 09/30/2000," (A-08-01-01048)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Grant No. 08YG0001 ACF Discretionary Grant for the Period
09/30/1996 - 09/30/2000," (A-08-01-01048)
August 31, 2001
Complete Text of Report is available in PDF format
(1.79 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Urban Peak received $400,000 for the period September 30, 1996 through September
30, 2000 to administer a street outreach program.  Our objectives were
to assess the achievement of grant objectives and to determine compliance with
grant terms and conditions.  We found weaknesses in two areas related to
accounting for matching funds and submitting progress reports.  Urban Peak
concurred with our findings and recommendations.